March 2009
Report No. EVAL-09-004

Controls Over the FDIC’s Processing of
Capital Purchase Program Applications
from FDIC-Supervised Institutions
                                                                                                   Executive Summary
                                                                                               Report No. EVAL-09-004
                                                                                                           March 2009

                                        Controls Over the FDIC’s Processing of Capital Purchase
                                        Program Applications from FDIC-Supervised Institutions

                                        Results of Evaluation

                                        As of January 15, 2009, the FDIC had received 1,615 applications from
                                        FDIC-supervised institutions requesting almost $34 billion in TARP funding.
Background and Purpose                  The FDIC had recommended 408 applications to Treasury for approval, of
of Evaluation                           which 267 had received awards. FDIC officials estimated that the Corporation
                                        will complete its review of the remaining applications during the second quarter
In October 2008, the Congress           of 2009. There are approximately 1,660 additional Subchapter S Corporation
passed and the President signed the     and mutual ownership institutions eligible to apply to the CPP. Treasury issued
Emergency Economic Stabilization        a term sheet for Subchapter S Corporation participation in mid-January 2009.
Act of 2008, which established the
Office of Financial Stability within    The FDIC has established controls for reviewing CPP applications that provide
the Department of the Treasury          reasonable assurance that the Corporation is complying with Treasury’s CPP
(Treasury) and authorized the
                                        guidance. The Division of Supervision and Consumer Protection (DSC) issued
Troubled Assets Relief Program
                                        examination procedures in February 2009 for monitoring compliance with CPP
(TARP). Among other things, the
                                        award provisions. Such procedures will allow the FDIC to measure
Act provides Treasury with broad,
flexible authorities to buy up to       institutions’ success in deploying TARP capital and ensure that the funds are
$700 billion in “troubled assets”       used in a manner consistent with the intent of the Congress.
and allows Treasury to purchase
and insure mortgages and securities     Compliance with Viability Criteria
based on mortgages and, in
consultation with the Chairman of       DSC officials stressed that the CPP was a Treasury program and that Treasury
the Board of Governors of the           had developed program parameters, including criteria for assessing applicants’
Federal Reserve System, purchase        financial viability. We reviewed 172 applications processed by the FDIC as of
any other financial instrument          December 10, 2008, and determined that 155 of the institutions’ Safety and
deemed necessary to stabilize           Soundness (S&S) and Community Reinvestment Act (CRA) ratings and
financial markets.                      performance ratios met the Treasury viability criteria.

Under the TARP, Treasury will           The FDIC considered mitigating factors in reviewing the 17 applications that
purchase up to $250 billion of          did not meet Treasury’s criteria. The FDIC forwarded the applications for 13 of
preferred stock through a Capital       the 17 institutions to a CPP Interagency Council for further review, as
Purchase Program (CPP). The CPP         contemplated by Treasury guidance. However, the FDIC did not forward the
is available to qualifying financial    four remaining applications not meeting Treasury’s criteria to the CPP Council.
institutions. Treasury will             The ability of the FDIC, and other federal bank regulators, to consider
determine eligibility and allocations   mitigating factors when making application decisions adds discretion to the
for interested parties after
                                        process and inherently increases the risk of inconsistency. The use of
consultation with the appropriate
                                        secondary review panels such as the CPP Council helps to address that
federal banking agency.
                                        additional risk.
Specifically, in the case of the
FDIC, the Corporation will analyze      We also evaluated reasons for application withdrawals and concluded that
CPP applications from state             58 percent of the 57 banks that had withdrawn as of December 10, 2008
nonmember banks and make a              withdrew voluntarily. The regional offices suggested that the remaining
recommendation to Treasury on           24 banks withdraw. As of January 15, 2009, 127 institutions had withdrawn
whether a CPP request should be         from CPP consideration.
approved or denied.
                                                                                                               Executive Summary
                                                                                                           Report No. EVAL-09-004
                                                                                                                       March 2009
                                     Controls Over the FDIC’s Processing of Capital Purchase
                                     Program Applications from FDIC-Supervised Institutions

                                     Results of Evaluation (continued)

                                     Composition/Characteristics of Applicants Recommended for Approval

                                     For the institutions that the FDIC recommended to Treasury for approval, most had
                                     a composite “2” S&S rating and satisfactory CRA rating as shown in the table.
Background and Purpose
of Evaluation (continued)             Examination                         1                2                      3
                                      S&S Composite Rating            19% (77)          76% (312)               5% (19)
In January 2009, the FDIC’s           S&S Capital Rating              35% (142)         64% (260)               1% (6)
Chief Operating Officer               Compliance Rating                25% (42)         68% (113)               7% (12)
testified before the Committee                                       Outstanding        Satisfactory      Needs Improvement
on Financial Services, U.S.           CRA Rating                       14% (24)         85% (143)               1% (2)
House of Representatives, and        Note – S&S ratings based on 408 institutions as of January 15, 2009. Compliance and CRA ratings based
stated that it is essential for      on our detailed sample of 172 institutions as of December 10, 2008. We could not determine Compliance
                                     or CRA ratings for 5 and 3 applicants, respectively.
institutions to account for how
federal funds (from programs
such as the TARP CPP and the         We determined that about 15 percent of the 408 institutions had some form of S&S
Temporary Liquidity                  or compliance enforcement action outstanding—34 bank board resolutions,
Guarantee Program) are being         23 memoranda of understanding, and 3 cease and desist orders.
utilized. The testimony noted
that the federal bank regulators     Applicants’ Proposed Use of CPP Funds
expect banks to actively seek
ways to use CPP assistance by        DSC officials initially noted that Treasury did not specify limits on institutions’ use
making sound loans to                of CPP funds and indicated that the FDIC did not intend to track applicants’ use of
household and business               funds. CPP application forms developed by Treasury also did not require
borrowers.                           applicants to state their intended use of CPP funds. The FDIC advised state
                                     nonmember banks that they could use the CPP to bolster capital or to support
The objective of the evaluation      acquisitions, both of which could ultimately allow for prudent lending.
was to assess the FDIC’s
process and controls associated      In mid-January 2009, the FDIC issued a Financial Institution Letter to state
with reviewing applications          nonmember banks that it expected institutions to monitor the use of CPP funds and
from FDIC-supervised                 show how participation in the CPP would expand prudent lending activity, such as
institutions to participate in the   through a plan with definable metrics for measuring performance.
TARP Capital Purchase
Program and forwarding               Based on our review of 172 applications, about 44 percent of applicants indicated
approval recommendations to
                                     proposed uses for CPP funds. The most common stated uses of CPP funds were to
Treasury.
                                     increase lending, bolster capital, or acquire other institutions.

                                     Recommendations and Other Matters

                                     We made two recommendations to enhance controls over the CPP application
                                     review process related to (1) forwarding applications recommended for approval
                                     that do not meet one or more of Treasury’s criteria to the CPP Council for
                                     additional review and (2) requiring Washington Office review of institutions
                                     recommended for withdrawal when the institutions technically meet the Treasury
                                     criteria. DSC concurred with both recommendations and proposed actions that
                                     were responsive to our recommendations.
To view the full report, go to
www.fdicig.gov/2009report.asp        We also plan to report separately to DSC other matters that were not specifically
                                     related to our evaluation objective.
                               TABLE OF CONTENTS


EVALUATION OBJECTIVE AND APPROACH                                            1

BACKGROUND                                                                   2

EVALUATION RESULTS                                                            3
  Status of the FDIC’s Efforts to Process CPP Applications                    3
  Application Review Process and Internal Controls in Place                   4
  FDIC Compliance with Treasury Viability Criteria                            8
  Evaluation of Reasons for CPP Applicant Withdrawals                         9
  Characteristics of Applicants Recommended for Approval                     10
 Applicants’ Proposed Use of CPP Funds                                       14

OVERALL CONCLUSIONS AND RECOMMENDATIONS                                      16

OTHER MATTERS                                                                16

APPENDIX I: Objective, Scope, and Methodology                                17
APPENDIX II: Corporation Comments                                            18
APPENDIX III: Management Responses to Recommendations                        19

TABLES
Table 1: Status of CPP Application Review and Award                          3
Table 2: Status of CPP Application Review and Award by Ownership Structure   3
Table 3: Mitigating Factors for Applicants Not Meeting Treasury Criteria      8
Table 4: Analysis of Reasons for Applicant Withdrawals                       9
Table 5: Composite “3-Rated” CPP Applicants Not Meeting Treasury Criteria    11
Table 6: CPP Applicants Forwarded to Treasury with a Capital                 12
         Component Rating of “3”
Table 7: OIG Analysis of Enforcement Actions                                 13
Table 8: Most Common Stated Uses of TARP CPP Funds                           15

FIGURES
Figure 1: Overview of the CPP Application Review Process                      2
Figure 2: S&S Composite Ratings                                              10
Figure 3: Capital Component Ratings                                          11
Figure 4: CRA Ratings                                                        12
Figure 5: Compliance Examination Ratings                                     13
DATE:                         March 20, 2009

MEMORANDUM TO:                Sandra L. Thompson, Director
                              Division of Supervision and Consumer Protection



FROM:                         Stephen M. Beard
                              Assistant Inspector General for Evaluations and Management

SUBJECT:                      Controls Over the FDIC’s Processing of Capital Purchase
                              Program Applications from FDIC-Supervised Institutions
                              (Report No. EVAL-09-004)


This report presents the results of the subject evaluation. The Troubled Assets Relief Program
(TARP) Capital Purchase Program (CPP) authorizes the Department of the Treasury (Treasury)
to purchase up to $250 billion of senior preferred shares from qualifying institutions. The federal
banking agencies, including the FDIC, are responsible for receiving and reviewing CPP
applications from their constituent institutions and making a recommendation to Treasury on
whether CPP requests should be approved or denied. As of January 15, 2009, the FDIC had
received applications from 1,615 institutions totaling almost $34 billion in award requests.


EVALUATION OBJECTIVE AND APPROACH
The objective of the evaluation was to assess the FDIC’s process and controls associated with
reviewing applications from FDIC-supervised institutions to participate in the TARP CPP and
forwarding approval recommendations to Treasury.

To accomplish our objective, we interviewed headquarters and regional Division of Supervision
and Consumer Protection (DSC) officials involved in reviewing applications and making award
recommendations to Treasury. We also evaluated case decision memoranda and supporting
application documentation for applications to ensure that applicants met Treasury’s viability
criteria. Finally, we compiled summary information regarding the supervisory characteristics of
institutions recommended for CPP funding and, where disclosed, recipient institutions’ proposed
usage of CPP funds. We performed detailed testing on applications forwarded to Treasury as of
December 10, 2008 and evaluated application review activity as of January 15, 2009.

We performed our evaluation during December 2008 and January 2009 in accordance with the
Quality Standards for Inspections. Details on our objective, scope, and methodology are
provided in Appendix I.
BACKGROUND
In October 2008, the Congress passed and the President signed the Emergency Economic
Stabilization Act of 2008 (EESA). The Act provides authority for the Federal Government to
purchase certain types of troubled assets for purposes of providing stability to the economy and
the nation’s financial system. The Act established the Office of Financial Stability within
Treasury and authorized the TARP. Under the TARP, Treasury will purchase up to $250 billion
of preferred stock through the CPP. The CPP is available to qualifying U.S. controlled banks,
savings associations, and certain bank and savings and loan holding companies. Treasury will
determine eligibility and allocations for interested parties after consultation with the appropriate
federal banking agency. Specifically, in the case of the FDIC, the Corporation will analyze CPP
applications from state nonmember banks and make a recommendation to Treasury on whether a
CPP request should be approved or denied.

DSC is responsible for CPP at the FDIC. DSC regional offices are performing the application
review. Figure 1 provides an overview of the application review process.

Figure 1: Overview of the CPP Application Review Process

        Bank submits
        application to
        the Region.
                                 Case Manager reviews
                                 application, considers
                                 9/30/08 call report,               Treasury    No
                                                                                            Region
                                 most recent or ongoing             viability
                                                                                            recommends
        Application              examination, and state              criteria
                                                                                            bank withdraw.
        entered into             regulator feedback.                  met?
        Application              Deputy Regional
        Tracking                 Director (DRD)
        System.                  reviews decision.
                                                              Yes

                                                                                     If bank considered viable,
                                                                                     application forwarded to
                                                                                     Treasury with a
     Regional               Washington                                               presumptive approval
     case                   Area Review                                              recommendation.
                                                          WARP and
     decision               Panel (WARP)
                                                          originating
     entered into           performs
                                                          DRD vote on
     SharePoint             secondary,
                                                          application.           If viability criteria is not
     Repository.            quality assurance
                                                                                 met, application
                            review.
                                                                                 forwarded to CPP
                                                                                 Interagency Council for
                                                                                 additional review.


Source: OIG review of DSC and Treasury CPP information.




                                                    2
EVALUATION RESULTS

Status of the FDIC’s Efforts to Process CPP Applications
As of January 15, 2009, the FDIC had received 1,615 applications from FDIC-supervised
institutions requesting almost $34 billion in TARP funding. The FDIC had recommended 408
applications to Treasury for approval, of which 267 had received awards as shown in Table 1.

Table 1: Status of CPP Application Review and Award (dollars in millions)
                     Applications Received Applications Forwarded to       Applications Approved
                                                   Treasury                      by Treasury
Region         Applicants      Amount      Applicants       Amount        Applicants     Amount
                              Requested                    Requested                     Received
Atlanta            345           $9,006         76              $6,450         61            $6,313
Chicago            295           $2,617         29                $767         19              $395
Dallas             242           $2,719         66              $1,029         27              $716
Kansas City        283           $1,894         73                $726         33              $502
New York           204          $11,468         79              $4,674         58            $3,039
San Francisco      246           $6,262         85              $3,114         69            $2,672
Total             1,615         $33,966        408             $16,760       267           $13,637
Source: OIG Analysis of FDIC CPP National Daily Report dated January 15, 2009.

FDIC officials indicated that Treasury instructed the federal banking agencies to process the
publicly traded applicants first, followed by privately held corporations. DSC officials indicated
that there were approximately 1,660 additional Subchapter S Corporations and mutual FDIC-
supervised institutions that could apply to the CPP once Treasury issues term sheets for
participation. 1 Table 2 presents application status information by the ownership structure of the
applicants as of January 15, 2009.

Table 2: Status of CPP Application Review and Award by Ownership Structure
                          Applications Received      Applications Forwarded       Applications Approved
Ownership                                                  to Treasury                  by Treasury
Structure                Applicants    Amount        Applicants Amount            Applicants    Amount
                                       Requested                  Requested                    Requested
Publicly Traded              321         $17,580        196          $14,805        176           $12,567
Stock
Private Corporation          851          $13,169        206            $1,883        89           $1,056
(not publicly traded)
Private S Corp            365            $2,263         2                  $8     0                    $0
Mutual                     45              $576         0                  $0     0                    $0
Other*                    33               $378         4                 $64     1                   $14
                         1,615          $33,966        408            $16,760    267              $13,637
Source: OIG Analysis of January 15, 2009, Application Tracking System (ATS) information.
* ATS did not specify ownership type information for 18 institutions.

On average, DSC regional offices are taking 16 calendar days from the time an application is
received to review the application and forward the case decision to the FDIC Washington Area
Review Panel (WARP). The WARP is taking an average of 17 additional days to complete its

1
    Treasury issued a CPP term sheet for Subchapter S Corporations on January 14, 2009.


                                                          3
review and forward applications to Treasury. For the 267 applications approved by Treasury, it
took Treasury, on average, 7 days to notify the FDIC that the applicant had been approved for
CPP participation. The remaining 141 FDIC-submitted applications awaiting Treasury approval,
as of January 15, 2009, had been at Treasury for an average of 11 days. DSC officials estimated
that the FDIC will complete its review of the remaining applications in the second quarter 2009.

Application Review Process and Internal Controls in Place
The FDIC has established controls to provide reasonable assurance that the Corporation complies
with Treasury’s CPP guidance and to guide DSC’s review of CPP applications. The FDIC’s
process for reviewing applications is consistent with guidance issued by Treasury. DSC also
issued examination procedures that should enable the FDIC to measure participating institutions’
success in deploying TARP capital and ensure that the funds are used in a manner consistent
with the intent of Congress.

Program Guidance to the Banking Industry and Examiners: The FDIC has issued guidance to
state non-member institutions in the form of Financial Institution Letters (FIL), as follows:

•   FIL-128-2008, November 12, 2008, Interagency Statement on Meeting the Needs of
    Creditworthy Borrowers, which encouraged institutions to lend prudently and responsibly to
    creditworthy borrowers; work with borrowers to preserve homeownership and avoid
    preventable foreclosures; adjust dividend policies to preserve capital and lending capacity;
    and employ compensation structures that encourage prudent lending;

•   FIL-109-2008, dated October 20, 2008, Applications to the Troubled Asset Relief Program’s
    Capital Purchase Program, which encouraged state nonmember institutions to participate in
    the TARP CPP to strengthen their capital positions and ability to prudently make credit
    available in their lending markets. The FIL also summarized the application process; and

•   FIL-1-2009, dated January 12, 2009, Monitoring the Use of Funding from Federal Financial
    Stability and Guaranty Programs, which stated that state nonmember institutions should
    implement a process to monitor their use of capital injections, liquidity support, and/or
    financing guarantees obtained through recent financial stability programs established by the
    Treasury, FDIC, and Federal Reserve.

On February 9, 2009, DSC issued Regional Director Memorandum 6300, Examination Guidance
for Financial Institutions Receiving Subscriptions from the U.S. Department of the Treasury’s
TARP CPP Program, to provide examiners with work steps for assessing compliance efforts of
institutions participating in the CPP and for assessing how institutions are incorporating the
interagency statement on responsible lending into their lending operations.

Organizational Structure and Resources: On October 31, 2008, the FDIC Board delegated
authority to the Director, DSC, to recommend to Treasury approval or denial of applications by
state nonmember institutions to participate in the TARP CPP. This delegation required that
recommendations regarding applications by institutions with total assets greater than
$500 million and that do not meet Treasury’s CPP criteria for presumptive acceptance will


                                                4
require a recommendation from DSC that must be approved by the Chairman. The Board also
provided the Director, DSC, authority to recommend to Federal Reserve districts approval or
denial of CPP applications filed by bank holding companies in cases where the largest insured
depository institution is a state nonmember institution.

DSC has developed regional and Washington Office governance structures for implementing the
CPP and has assigned regional and headquarters resources to the effort. The regions have more
than 110 staff working on CPP applications. For the most part, the regional case managers
review applications from those institutions that the case manager routinely oversees. As
discussed later, most regions have also identified a regional coordinator or facilitator for the CPP
effort. The Deputy Regional Director reviews and approves case manager recommendations for
all applications. In some regions, Assistant Regional Directors may receive informational copies
of case decision memoranda or may review the case manager’s decision.

DSC headquarters has about 20 staff working on the CPP, including three senior officials who
serve on the WARP. The WARP performs a secondary review of all regional office
recommendations. DSC’s Associate Director, Risk Management Policy Branch, is managing the
overall CPP application review effort for the FDIC and is the FDIC’s representative on the CPP
Interagency Council (CPP Council).

Procedures and Processing Guidelines: In addition to the FILs, mentioned earlier, DSC’s
Washington Office issued the RO Processing Guidelines for TARP Capital Purchase Program,
in October 2008. This document:

•   provides background for the TARP and CPP;
•   describes the FDIC’s role;
•   suggests regional office application review steps and time frames for application reviews;
•   explains the process for reviewing borderline, or marginally-suited applications; and
•   explains Washington Office work steps.

The guidelines note that applications should be processed within 5 business days after
acceptance and then transmitted to the Washington Office.

Treasury Viability Criteria and Additional Treasury Guidance: On October 20, 2008, Treasury
issued final viability criteria for the federal banking agencies to use in reviewing CPP
applications. Treasury has not issued the viability criteria publicly. The Treasury viability
criteria states that the CPP eligibility recommendation will be based on an assessment of the
overall strength and viability of the applicant without considering potential funds received under
the CPP. Treasury presents criteria for classifying applications as either recommended for
approval, disapproval, or for additional review by the CPP Council. The viability criteria is
based on the institution’s examination ratings and selected performance ratios. 2 We confirmed

2
   Because Treasury has not issued the viability criteria publicly, we are not discussing the specific performance
ratios that the federal banking agencies use to review CPP applications in this report. Our discussion of the Treasury
viability criteria is consistent with the Government Accountability Office’s description of the program in its
December 2008 report, Troubled Asset Relief Program: Additional Actions Needed to Better Ensure Integrity,
Accountability and Transparency, GAO-09-161.


                                                          5
that DSC used the Treasury viability criteria in assessing CPP applications from
FDIC-supervised institutions.

We also confirmed that the FDIC utilized other Treasury-issued guidance and documents, such
as the Treasury-issued TARP Capital Purchase Program Case Decision Memo. This 2-page
document records the application review findings related to CAMELS and CRA ratings and
selected performance ratios; includes an area for recording narrative comments related to the
federal banking agency recommendation; and requests a brief summary of the viability
assessment, supervisory strategy, and any material or relevant enforcement actions.

DSC officials indicated that Treasury has issued additional informal guidance by e-mail based on
Treasury’s review of some of the earlier CPP applications. DSC has incorporated this additional
informal guidance into its application review process.

Case Management Systems and Application Repository: The Dallas Regional Office
Management Information Group (ROMIG) developed a MicroSoft Access®-based database for
tracking information about CPP applications. Each regional office uses this Application
Tracking System (ATS). ATS includes an individual institution “look-up” feature that presents
detailed information about an applicant, including bank points of contact, capital ratios, and
performance ratios. ATS also includes a reporting facility that is used to prepare the TARP CCP
application activity report, which is discussed in more detail below.

DSC also developed a SharePoint® site that serves as a repository for case materials for
applications forwarded by the regions to the Washington Office. DSC establishes a record for
each applicant that includes an electronically scanned version of the institution’s CPP
application, the case decision memorandum, a WARP quality assurance review form, and
supporting documentation for the application from the case manager. 3

The SharePoint® site organizes applications based on their process stage (e.g., by region,
Washington Office, or pending review by Treasury). SharePoint® also includes a library of CPP
policy and procedural documents.

Supervisory Review and Quality Assurance Processes: DSC has built in a number of levels of
supervisory review of award recommendations and quality assurance controls at the regional and
Washington Office level. In most of the regions, an Assistant Regional Director and the Deputy
Regional Director (DRD) review the case decision memorandum. In addition, the WARP and
DRD from the originating region review the regional recommendation and verify that the
regional conclusions are well-reasoned and defensible.

The only exception to this supervisory review process is for applications that are withdrawn at
the regional level. If the region suggests that an institution withdraw its application, that
recommendation or decision is not reviewed by the Washington Office. As discussed earlier,
DSC has delegated this responsibility to the regional offices.

3
 Applications for institutions that voluntarily withdraw or institutions for which a region informally recommends
withdrawal are not entered into the SharePoint® repository. DSC does record within the ATS whether an applicant
has withdrawn and the withdrawal date.


                                                        6
With respect to quality assurance, most of the regions have assigned a case manager to serve as a
regional CPP facilitator to ensure that Washington Office and Treasury guidance is disseminated,
ensure that case decision memoranda are complete, monitor regional progress in reviewing
applications, and compile any regional CPP reporting information or statistics.

Status Reporting to the FDIC Board and Chief Operating Officer: DSC is utilizing the ATS to
produce a weekly activity status report of CPP application review activity for the FDIC Board of
Directors and the Chief Operating Officer (COO). This report includes information such as:

•   Institution-specific information such as bank name, total assets, and ownership structure;
•   Application tracking information such as date the application was received by the FDIC and
    date that the application was sent to Treasury;
•   The amount of CPP funding requested and as a percentage of risk-weighted assets; and
•   The institutions’ CAMELS ratings, most recent examination date, and whether the bank has
    any enforcement actions outstanding.

This report is beneficial in assessing DSC progress in reviewing applications, the number of
applicants that have withdrawn from consideration, and the number and amount of Treasury
awards.

Examination Procedures for Monitoring Compliance with Award Provisions: As discussed
earlier, DSC issued Regional Director Memorandum 6300, Examination Guidance for Financial
Institutions Receiving Subscriptions from the U.S. Department of the Treasury’s TARP CPP
Program, in February 2009, which provided examination work steps for:

•   Ensuring recipients comply with TARP CPP securities purchase agreements by reviewing:
    o Employment contracts with the institution’s top five executives,
    o Executive compensation practices against the principles of EESA Sec. 111(b),
    o Cash dividends in relation to pre-TARP dividends, and
    o The institution’s capital structure to ensure that equity has not been retired.

•   Understanding how recipients made use of TARP CPP funds and considering recipients’
    success in achieving the goals of the November 2008 interagency statement on meeting the
    needs of creditworthy borrowers by:
    o Determining the impact from receipt of TARP CPP monies, including referencing Call
       Report data, internal bank lending reports, and new loan/pipeline reports;
    o Evaluating the institution’s support of market credit needs since receiving CPP funding;
    o Determining whether proceeds were down-streamed to the bank or used at the holding
       company or non-bank affiliates;
    o Evaluating the institution’s foreclosure prevention and loan modification efforts, such as
       efforts to increase lending and prevent foreclosures over the payment of dividends; and
    o If the institution used TARP CPP monies to fund an acquisition, evaluating whether this
       has resulted in increased lending in the merged institution’s market area.

The examination procedures should help the FDIC measure participants’ success in deploying
TARP capital and ensure that funds are used in a manner consistent with the Congress’ intent.


                                                7
FDIC Compliance with Treasury Viability Criteria
As discussed earlier, Treasury has established viability criteria for the banking agencies’ use in
making a CPP recommendation. DSC officials stressed that the CPP was a Treasury program
and that Treasury had developed parameters for the program, including criteria for assessing an
applicant’s financial viability. Treasury guidance indicates that the banking agency should
forward applicants with unacceptable performance ratios to the CPP Council for review.
Treasury also presented several mitigating factors that the banking agencies could consider in
making application recommendations.

We reviewed the case decision memoranda and supporting application documentation for each of
the 172 institutions, as of December 10, 2008, for which the FDIC had recommended
presumptive approval to Treasury or for further review by the CPP Council. We verified that
most of the 172 institutions met the Treasury criteria. Seventeen of the 172 institutions
(10 percent) did not meet at least one of the Treasury viability criteria. However, we verified
that in each of the 17 cases, the FDIC case decision memorandum discussed mitigating factors.
As of February 11, 2009, Treasury had approved 13 of the 17 cases and one institution had
withdrawn. Table 3 presents additional information about the 17 cases and mitigating factors.

Table 3: Mitigating Factors for Applicants Not Meeting Treasury Criteria
Bank    Criteria Not Met             Forwarded     Mitigating Factors
                                     to Council?
  1     Performance Ratio*           Yes           Bank raised $600 million in capital and committed to raising
                                                   $300 million more.
  2     CRA Rating                  Yes            CRA rating at ongoing examination improved to Outstanding.
  3     Two Performance Ratios      Yes            Bank has identified and adequately reserved for problem loans.
  4     Two Performance Ratios* Yes                Capital ratios are solid. Holding company injected capital.
  5     Performance Ratio*          No             Overall condition is sound. Adequate risk management
                                                   practices and oversight for loan concentration risks.
  6     Performance Ratio           Yes            Historically 1 or 2-rated. Favorable management.
  7     Performance Ratio           Yes            Discontinued construction and development (C&D) loan
                                                   growth. Bank well-capitalized with positive earnings and
                                                   adequate risk management.
  8     Performance Ratio           Yes            Bank well-capitalized. Acceptable risk management. Bank
                                                   management has targeted a reduction in C&D loans.
  9     Two Performance Ratios* No                 Capital levels adequate and earnings are sufficient.
 10     Two Performance Ratios      Yes            Suffered losses on Government Sponsored Enterprise stock.
 11     Two Performance Ratios* Yes                Historically 1-rated. President/CEO replaced.
                                                   Board/management responsive and addressing asset quality.
 12     CRA Rating                  No             Bank adopted a CRA action plan and had made progress.
 13     Two Performance Ratios      Yes            Capital injection from parent. Bank selling non-performing
                                                   loans. New bank management.
 14     Two Performance Ratios      Yes            Management proactive in reducing problem assets and making
                                                   progress in addressing examination deficiencies.
 15     Performance Ratio           No             Historically well-rated. Well-capitalized.
 16     Three Performance Ratios Yes               Historically 1-rated. Deterioration due to a residential
                                                   construction lending program that has been discontinued.
 17     Four Performance Ratios     Yes            Bank complying with a state supervisory action.
                                                   Bank obtaining additional $30 million investment.
Source: OIG Review of Case Decision Memoranda and Supporting Documentation.
* Bank performance ratio was within 10 percentage points of Treasury performance criteria.



                                                       8
As shown above, in 13 of the 17 cases involving mitigating factors, the FDIC forwarded the case
decision memorandum to the CPP Council for additional review as contemplated in Treasury’s
guidance. However, the FDIC did not forward four of the applications not meeting Treasury’s
criteria to the CPP Council. The ability of the FDIC, and other federal bank regulators, to
consider mitigating factors when making application decisions adds discretion to the process and
inherently increases the risk of inconsistency. The use of secondary review panels such as the
WARP and CPP Council helps to address that additional risk. Accordingly, we recommended
that DSC reiterate to regional officials that all applicants being recommended to the Treasury for
approval that do not meet one or more of the Treasury viability criteria be forwarded to the CPP
Council for further review.

Evaluation of Reasons for CPP Applicant Withdrawals
We also evaluated reasons for application withdrawals and concluded that a little more than
one-half of the 57 banks that had withdrawn as of December 10, 2008 withdrew voluntarily.
DSC officials indicated that it was rare for a federal banking agency or Treasury to formally
deny a CPP application because the decision becomes public and could negatively impact the
public’s perception of the institution. Instead, the banking agencies or Treasury encourage
institutions that do not meet the viability criteria to informally withdraw their application.
Institutions may withdraw voluntarily because they are no longer interested in participating in
the CPP or may withdraw based on the FDIC’s suggestion that they do not meet the criteria for a
presumptive recommendation for approval.

We asked the regional offices to provide information about the circumstances for withdrawals
for the 57 banks that had withdrawn as of December 10, 2008. Table 4 presents information
about withdrawal activity and reasons for the FDIC suggesting that applicants withdraw.

Table 4: Analysis of Reasons for Applicant Withdrawals
 Region        Voluntarily   FDIC Suggested
               Withdrew      Bank Withdraw    Reasons for FDIC Suggesting Withdrawal
 Atlanta       4             1                State member bank filed in error with the FDIC.
 Chicago       5             2                CAMELS “4” and “5-rated” banks.
 Dallas        10            1                Not a Qualified Financial Institution.
 Kansas City   4             10               Nine were CAMELS “4-” or “5-rated” banks.
                                              One had a proposed “4 rating.”
 New York      4             0                All withdrew voluntarily.
 San           6             10               Six were “4” or “5-rated” or significantly deteriorating.
 Francisco                                    Bank not eligible due to foreign ownership.
                                              Three technically met criteria. (Discussed further below.)
 Total        33            24
Source: OIG Review of Case Decision Memoranda.

According to case decision information in the ATS, three institutions that the San Francisco
Regional Office suggested withdraw from consideration were well-capitalized and technically
met the Treasury performance ratio criteria. We followed up with regional management who
indicated that, in all three cases, poor bank management was the region’s primary concern in
recommending that the three institutions withdraw. We also noted that case decision memoranda


                                                   9
for the three institutions identified concerns related to liquidity, asset quality, and enforcement
action activity.

As discussed earlier, the use of mitigating factors--in these cases to recommend that applicants
withdraw from consideration--increases the risk of inconsistency. We recommended that in
cases where an applicant technically meets the Treasury criteria, but the regional office
concludes that the applicant is not a viable candidate for CPP funding, that the region forward
the application to the Washington Office for review.

During a January 13, 2009 Risk Analysis Center presentation, a DSC official indicated that the
number of withdrawals had increased to 112 and that a number of banks had voluntarily
withdrawn as a result of the additional monitoring measures and conditions on the use of TARP
funds proposed by the Chairman of the House Financial Services Committee. As of
January 15, 2009, 127 institutions had withdrawn.

Characteristics of Applicants Recommended for Approval
Most of the 408 institutions that the FDIC had recommended to Treasury for CPP approval as of
January 15, 2009, had a composite “2” rating and Capital component rating of “2” at their most
recent safety and soundness (S&S) examination. Most of the 172 institutions in our detailed
sample had a “2” compliance examination rating and a “satisfactory” CRA rating. About
15 percent of the 408 institutions (59 institutions) had some form of enforcement action.

S&S Composite Ratings: We reviewed the CPP National Daily Report as of January 15, 2009 to
understand the composition of the S&S composite ratings for the 408 institutions that the FDIC
had forwarded to Treasury for approval
or the CPP Council for further review.   Figure 2: S&S Composite Ratings
According to information within the       Composite 2
ATS, approximately 76 percent of the       76% (312)                         Composite 3
institutions received a composite 2                                            5% (19)

rating at their most recent S&S
examination. Figure 2 presents
composite rating information for the
408 institutions.
                                                                                         Composite 1
We reviewed the case decision                                                          19% (77)
memoranda and supporting
documentation for the 19 composite
“3-rated” institutions. We confirmed          Source: OIG Analysis of Application Tracking System.
that 14 of the 19 applications met the
Treasury performance ratio criteria. 4 The remaining five Composite “3-rated” applications were
either not “well capitalized” or did not meet one of the Treasury performance ratios, as shown in
Table 5.


4
  Though technically not required to do so, the FDIC forwarded 4 of the 14 applications to the CPP Council for
consideration rather than recommending them for presumptive approval.


                                                       10
Table 5: Composite “3-Rated” CPP Applicants Not Meeting Treasury Criteria
                   CPP           Meets “Well      Meets Treasury
 Institution  Subscription       Capitalized”        Viability          Application           Criteria Not Met
                 Amount             Capital        Performance         Forwarded to
                (in 000s)       Requirements?         Ratios?          CPP Council?
      1             $30,900          Yes                No                  Yes          One Performance Ratio
      2           $182,900           Yes                No                  Yes          One Performance Ratio
      3             $73,700          Yes                No                  Yes          Two Performance Ratios
      4             $17,000           No                Yes           No, not required One Performance Ratio
      5             $57,000           No                No                  Yes          Three Performance Ratios
Source: OIG Analysis of the January 15, 2008 CPP National Daily Report and Application Tracking System.

We also noted that three institutions’ composite ratings were downgraded following the FDIC’s
submission of the application to the CPP Council, but before Treasury made a CPP award
decision. We determined that in each case, the regional office notified the Washington Office,
which notified Treasury of the ratings changes. Two of the banks subsequently withdrew. FDIC
officials provided other examples of ratings changes or applicant deterioration information that
the FDIC communicated to Treasury.

S&S “Capital” Component Ratings: We reviewed the CPP National Daily Report as of
January 15, 2009 to understand the composition of the S&S Capital component rating for the
408 institutions that the FDIC had
forwarded to Treasury for approval or     Figure 3: Capital Component Ratings
to the CPP Council for further review.
                                              Capital 2
Approximately 64 percent of the              64% (260)
institutions received a Capital                                               Capital 3
                                                                               1% (6)
component rating of “2” at their most
recent S&S examination, as shown in
Figure 3.

Six institutions had a Capital                                                             Capital 1
component rating of “3.” FDIC’s Risk                                                      35% (142)
Management Manual of Examination
Policies provides that a Capital               Source: OIG Analysis of Application Tracking System.
component rating of “3” indicates a less
than satisfactory level of capital that
does not fully support the institution's risk profile. The rating indicates a need for improvement,
even if the institution's capital level exceeds minimum regulatory and statutory requirements.
We reviewed supporting documentation for the six institutions with Capital component “3”
ratings as shown in Table 6.




                                                     11
Table 6: CPP Applicants Forwarded to Treasury with a Capital Component Rating of “3”
                   CPP           Meets “Well      Meets Treasury
    Institution
              Subscription       Capitalized”        Viability          Application           Criteria Not Met
                 Amount             Capital        Performance         Forwarded to
                (in 000s)       Requirements?         Ratios?          CPP Council?
      1           $570,000           Yes                Yes           Yes, not required Met Criteria
      2             $73,700          Yes                No                  Yes          Two Performance Ratios
      3                 $450         Yes                Yes           No, not required Met Criteria
      4           $135,000           Yes                Yes           No, not required Met Criteria
      5             $57,000          Yes                No                  Yes          Two Performance Ratios
      6             $11,500          Yes                Yes           Yes, not required Met Criteria
Source: OIG Analysis of the January 15, 2008 CPP National Daily Report and Application Tracking System.

We confirmed that the FDIC submitted institutions 2 and 5 to the CPP Council for further
review, as required. Institutions 2 and 5 were well-capitalized, but did not meet all of Treasury’s
CPP viability performance ratios. As of February 11, 2009, Treasury had remanded both
institutions back to the FDIC for additional support on the institutions’ viability.

Community Reinvestment Act (CRA) Ratings: As discussed earlier, an applicant’s CRA rating
is another factor that Treasury instructed the federal banking agencies to consider in making
award recommendations. We reviewed the CRA ratings for the 172 institutions in our detailed
review sample as of December 10, 2008. 5 According to information within the case decision
memoranda, approximately 85 percent of the institutions received a Satisfactory rating and
14 percent Outstanding in their most recent CRA examination as shown in Figure 4. 6

We also reviewed CRA information for the               Figure 4: CRA Ratings
two institutions with “Needs Improvement”
                                                        Satisfactory
CRA ratings. Case decision memoranda and                 85% (143)                                 Needs
supporting documentation indicated that in                                                      Improvement
one case the institution was making progress                                                       1% (2)
in responding to a CRA-related enforcement
action. In the second case, an on-going                                                           Outstanding
                                                                                                   14% (24)
CRA examination preliminarily concluded
that the institution had improved to
“Outstanding.” We also noted that one
Atlanta region CPP applicant withdrew from
consideration based on historical CRA and
                                                        Source: OIG Analysis of Case Decision Memos and SOURCE.
other compliance issues.




5
  DSC maintains CRA and Compliance examination information in its System of Uniform Reporting of Compliance
and CRA Examinations (SOURCE).
6
  CRA rating information was not available for 3 institutions who were new to FDIC regulation either as de novo
institutions or through a bank charter change.


                                                      12
Compliance Examination Ratings: While not a Treasury criteria, we confirmed that each of the
regions were factoring applicants’ compliance ratings into CPP recommendation decisions. We
verified that each region’s case managers performing the application reviews coordinated with
the region’s compliance examination staff or
reviewed SOURCE information to verify the       Figure 5: Compliance Examination Ratings
institution’s compliance position and CRA
                                                   "2-Rated"
rating. We verified compliance ratings for        68% (113)                        "3-Rated"
the institutions in our detailed sample as                                          7% (12)
                     7
shown in Figure 5.

Twelve institutions had a compliance rating
of “3” which means that, generally, the
institution is in a less than satisfactory                                                         "1-Rated"
                                                                                                   25% (42)
compliance position. A “3-rating” is
generally a cause for supervisory concern
and requires more than normal supervision
                                                       Source: OIG review of SOURCE information.
to remedy deficiencies.

Enforcement Actions: We also reviewed the 172 institutions for evidence of S&S or compliance
enforcement actions. The CPP National Daily Report indicated that 33 institutions
recommended for presumptive approval had outstanding formal or informal enforcement actions.
Representatives from each region also stated that, when reviewing an application, case managers
review the Formal and Informal Action Tracking (FIAT) System to determine whether the
applicant is under any existing or pending enforcement actions, including compliance
enforcement actions related to fair lending or unfair and deceptive acts or practices (UDAP). 8
We researched the nature of each enforcement action as presented in Table 7.

Table 7: OIG Analysis of Enforcement Actions
Type of Action        S&S or Bank Secrecy Act-Related           Compliance-Related
Bank Board            11 Institutions                           5 Institutions
Resolution (BBR)      Asset quality and earnings issues         Compliance Management System (CMS) weaknesses
                      Liquidity and market sensitivity          UDAP compliance for third-party servicers
                                                                Truth in Lending Act and Real Estate Settlement
                                                                Procedures Act issues
Memorandum of           9 Institutions                          9 Institutions
Understanding           Asset quality and poor earnings         CMS weaknesses and compliance training
(MOU)                   Capital maintenance                     Truth in Lending Act with civil monetary penalties
                        BSA issues                              Home Mortgage Disclosure Act violations
                        Credit concentrations                   Fair Credit Reporting Act issues
                        ALLL methodology                        Flood insurance violations
Cease & Desist          1 Institution                           1 Institution
Order (C&D)             Capital restoration, restrictions on asset
                                                                Substantive violations of the Federal Trade
                        growth, limits on dividends and executive
                                                                Commission Act and Equal Credit Opportunity Act
                        compensation
Source: OIG Review of the DSC’s Formal and Informal Action Tracking System
Note: Several institutions had multiple enforcement actions.

7
  We could not determine compliance ratings for 5 of the 172 institutions in our sample.
8
  Treasury considers enforcement actions in making CPP award decisions. However, an enforcement action does
not necessarily disqualify an applicant from CPP consideration.


                                                     13
As of January 15, 2009, the 408 institutions recommended for approval or further review
collectively had 34 BBRs, 23 MOUs, and 3 C&Ds.

We confirmed that the regional offices do not coordinate with FDIC’s Legal Division regarding
whether CPP applicants are subject to any enforcement or legal action. DSC regional officials
indicated that DSC usually initiates enforcement actions and thus would be aware of an
applicant’s enforcement action history. Although we believe that some coordination with the
Legal Division would be prudent, we acknowledge that the possibility of DSC not being aware
of an enforcement action is remote. Accordingly, we are not making a formal recommendation
in this regard. However, we would suggest that DSC be open to identifying non-burdensome
forms of coordination with the Legal Division to ensure that CPP applicants recommended for
approval do not have historical or pending predatory lending or consumer-related enforcement
actions that could be potentially embarrassing for the Corporation. 9

Applicants’ Proposed Use of CPP Funds
DSC officials initially told us that Treasury did not specify limits on institutions’ use of CPP
funds and indicated that the FDIC did not intend to track applicants’ use of funds. FDIC officials
stressed that the CPP was Treasury’s program and noted that CPP application forms developed
by Treasury did not require applicants to state their intended use of CPP funds.

However, we did note that in its initial announcement of the program, the FDIC advised that
state nonmember banks could use the CPP to bolster capital or to support acquisitions of other
institutions. Specifically, FIL-109-2008, stated: "Participation in this low-cost capital program
can bolster financial strength, or potentially support acquisitions, both of which ultimately allow
for prudent lending that may currently be constrained by capital levels."

DSC officials initially told us that money is fungible and that it would be difficult for examiners
to track for what purpose state nonmember institutions used CPP awards, especially in situations
where an institution received capital contributions from other, non-TARP sources.

DSC representatives from most of the regions told us that they did inquire about applicants’
proposed use of CPP funds. One regional representative told us that while it might not be
possible to track “dollar-for-dollar” how CPP funds were used, it should be relatively easy for
examiners to detect whether a TARP recipient had increased business and consumer lending. At
least one regional DSC representative also defended institutions’ practice of using CPP funding
to bolster capital and noted that shoring-up an institution’s capital position was a means to an end
that would place an institution in a more solid position to lend responsibly.

Based on our review of 172 applications, about 44 percent of the applicants (76 institutions)
indicated proposed uses for CPP funds despite not being required to do so. In most of those
cases, the applicant stated it intended to use funds to bolster capital, increase lending, or acquire
other institutions. Table 8 presents the most common reasons stated.
9
  Although remote, it is possible that regional management may not be aware of an action brought against an
institution by another federal agency, such as a UDAP violation or action brought by the Federal Trade Commission.


                                                       14
     Table 8: Most Common Stated Uses of TARP CPP Funds
                                                                                  Number of Institutions
      Proposed Use of Funds                                                       Stating Proposed Use*
      Increase responsible lending to consumers                                               49
      Increase or preserve capital                                                            26
      Acquire other institutions                                                              22
      Fund subsidiary bank                                                                    11
      Support bank growth or strengthen balance sheet                                          9
      Enhance or increase liquidity                                                            9
     Source: OIG review of 172 CPP Applications as of December 10, 2008.
     * Some applicants stated multiple proposed uses of funds.

On January 12, 2009, the FDIC issued FIL-1-2009, Monitoring the Use of Funding from Federal
Financial Stability and Guaranty Programs, advising insured institutions that they should track
their use of capital injections, liquidity support, and/or financing guarantees obtained through
recent financial stability programs. The FIL suggested that the tracking would be part of a
process for determining how these federal programs have improved the stability of the institution
and contributed to lending to the community and providing such information to investors and the
public in shareholder reports and financial statements.

On January 13, 2009, the FDIC’s COO testified before the Committee on Financial Services,
U.S. House of Representatives, on Use of TARP Funds Under the Emergency Economic
Stabilization Act of 2008. The COO reported that the FDIC was preparing examination guidance
for evaluating participating banks’ compliance with EESA, the CPP securities purchase
agreements, and success in implementing the goals of the November 2008 interagency statement
on responsible lending. 10 The COO noted that examiners would be reviewing institutions for the
following:

•     Establishment of a monitoring process for the use of TARP proceeds to determine the
      primary uses by the institution of received funds;
•     Increased lending efforts in the institution’s market since receiving a TARP CPP
      subscription;
•     Down-streaming subscription proceeds to the insured depository institution (if a holding
      company structure is in place) to ensure that TARP funds can be intermediated into loans and
      bank capital is augmented;
•     Engagement in mortgage loan modification or foreclosure prevention efforts that rely on
      systematic, proactive approaches that enhance the net present value of individual mortgage
      loans versus foreclosure;
•     Utilization of executive compensation programs that exemplify good corporate governance
      and conform with EESA and other requirements; and
•     Implementation of the goals of the interagency statement to meet the needs of creditworthy
      borrowers in the institution’s market area.

The COO also encouraged the development of a troubled asset program that met three principles
of accountability, transparency, and viability. Regarding transparency, the COO noted that

10
     As discussed earlier, the FDIC issued CPP examination procedures in February 2009.


                                                        15
participants in the program should be required at the outset to show how participation would
expand prudent lending activity and should provide the government with a plan for using the
funds to facilitate new lending, with definable metrics for measuring performance.


OVERALL CONCLUSIONS AND RECOMMENDATIONS
The FDIC is making progress in reviewing CPP applications and making award
recommendations to Treasury. The Corporation has established controls to provide reasonable
assurance that it complies with Treasury’s CPP guidance as it carries out that process. Based on
our review, we determined that the FDIC followed the Treasury guidance for substantially all of
the applications we reviewed. Finally, DSC has also developed examination procedures that will
allow the Corporation to measure participating institutions’ success in deploying TARP capital
and ensure that the funds are used in a manner consistent with the intent of the Congress.

To further enhance controls over the application review process, we recommend that the
Director, DSC:

   (1) Reiterate to regional officials that all applicants being recommended to the Treasury for
       approval that do not meet one or more of the Treasury viability criteria be forwarded to
       the CPP Council for further review.

   (2) In instances where an applicant technically meets, or nearly meets, Treasury’s viability
       criteria, but the region recommends that the applicant withdraw because of other
       concerns, require that such decisions be reviewed by the Washington Office.


CORPORATION COMMENTS AND OIG EVALUATION
DSC management provided a written response, dated March 18, 2009, to a draft of this report.
The response is presented in its entirety in Appendix II. Management concurred with both
recommendations and proposed actions to be completed by March 27, 2009 that were responsive
to both recommendations. A summary of management’s responses to our recommendations is
presented in Appendix III.


OTHER MATTERS
During our evaluation, we identified other matters that were not specifically related to our evaluation
objective. We intend to report separately to DSC on those other matters.




                                                  16
                                                                                     Appendix I


                    OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to assess the FDIC’s process and controls associated with reviewing
applications from FDIC-supervised institutions to participate in the TARP Capital Purchase
Program and forwarding approval recommendations to Treasury. To accomplish our objective,
we interviewed headquarters and regional DSC officials involved in reviewing applications and
making award recommendations to Treasury. We also evaluated case decision memoranda and
supporting application documentation to ensure that applicants met Treasury’s viability criteria.
Finally, we compiled summary information regarding the supervisory characteristics of
institutions recommended for CPP funding and, where disclosed, recipient institutions’ proposed
usage of CPP funds.

We selected a test date of December 10, 2008. The FDIC had recommended 172 applications for
approval to Treasury as of that date. We reviewed the case decision memoranda and supporting
documentation in the SharePoint® application repository system for all 172 applications. We
confirmed that the applications met Treasury’s viability criteria. In cases where an applicant did
not meet the criteria, we checked for mitigating factors, additional discussion, or consideration
by the CPP Council. We also analyzed ATS information as of January 15, 2009 to obtain more
recent program status information.

We relied on application information and supporting documentation in the SharePoint®
application repository system. We did not independently verify or validate information within
the ATS or SharePoint® site with source documents (such as examination reports or call reports).
We did not evaluate the merits of individual applications or conclude whether individual
applicants should or should have not been recommended for CPP funding.

Specifically, our work included the following:

•    Reviewed available Treasury and FDIC guidance on the TARP CPP, including FDIC
     Financial Institution Letters.
•    Reviewed FDIC Washington Office and regional office guidance.
•    Reviewed GAO reports issued on the TARP and held discussions with GAO staff to
     understand their work and their views of legislative intent and intended use of TARP funds.
•    Interviewed FDIC Washington officials and regional officials regarding the program and
     the FDIC’s processing of applications.
•    Documented and assessed the process for reviewing applications and program controls that
     the FDIC has put into place.
•    Analyzed and compiled summary information on the number of applications received,
     reviewed, withdrawn, and denied.
•    Determined the number of, and reasons for, CPP application withdrawals.
•    Assessed the number of, and nature of, applicants’ enforcement actions.
•    Assessed applicants’ use of CPP funding and how the FDIC will monitor compliance with
     CPP award terms.

We performed our evaluation from December 2008 through January 2009, in accordance with
the Quality Standards for Inspections.


                                                 17
                       Appendix II
CORPORATION COMMENTS




         18
                                                                                                                                                Appendix III

                                             MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.

  Rec.                                                                                     Expected         Monetary      Resolved:a Yes         Open or
 Number                 Corrective Action: Taken or Planned/Status                      Completion Date      Benefits         or No              Closedb
      1       DSC will forward all applications being recommended for approval          March 27, 2009           $0             Yes                Open
              that do not meet one or more of the Treasury viability criteria to the
              CPP Council for further review. DSC will remind regional and
              Washington Office staff of this procedure.



      2       Going forward, DSC will implement a Washington Office review of           March 27, 2009           $0             Yes                Open
              regional withdrawal recommendations for applications that
              technically meet the Treasury viability criteria and advise the
              regions of this review step.
a
    Resolved - (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                   as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive, the recommendation can be closed.




                                                                                   19
